APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion of the Kentucky Supreme
Court, State of Ohio and Joseph W.
Testa, Tax Commissioner of Ohio v.
Great Lakes Minerals, LLC, 597
S.W.3d 169 (Dec. 19, 2019) . . . . . . App. 1
Appendix B Order of the Circuit Court of the
Commonwealth of Kentucky, Greenup
County, Denying Respondent Ohio
and Commissioner Testa’s Motion to
Dismiss, Great Lakes Minerals, LLC v.
Joseph W. Testa, Tax Commissioner of
Ohio, et al., Case No. 17-CI-00311
(Feb. 16, 2018) . . . . . . . . . . . . . . App. 12
Appendix C Order of the Kentucky Supreme Court
Denying Rehearing and Modification,
State of Ohio and Joseph W. Testa,
Tax Commissioner of Ohio v. Great
Lakes Minerals, LLC, Case No.
2018-SC-000161-TG
(Apr. 30, 2020) . . . . . . . . . . . . . . App. 14
Appendix D Order of the Kentucky Supreme Court
Granting Respondent Ohio and
Commissioner Testa’s Motion to
Transfer to the Kentucky Supreme
Court, State of Ohio and Joseph W.
Testa, Tax Commissioner of Ohio v.
Great Lakes Minerals, LLC, Case No.
2018-SC-000161-T
(June 14, 2018) . . . . . . . . . . . . . . App. 16

ii
Appendix E Order of the Kentucky Supreme Court
Holding the Action in Abeyance
Pending Final Determination of
Franchise Tax Bd. of California v.
Hyatt, 138 S. Ct. 2710, No. 17-1299
(2018), State of Ohio and Joseph W.
Testa, Tax Commissioner of Ohio v.
Great Lakes Minerals, LLC, Case No.
2018-SC-000161-T
(Mar. 14, 2019) . . . . . . . . . . . . . . App. 18
Appendix F Petitioner’s Complaint and Petition for
Declaratory Judgment, Great Lakes
Minerals, LLC v. Joseph W. Testa and
State of Ohio, Case No. 17-CI-00311
(July 10, 2017). . . . . . . . . . . . . . . App. 20

App. 1

APPENDIX A
SUPREME COURT OF KENTUCKY
2018-SC-000161-TG
[Filed: December 19, 2019]
_________________________________
STATE OF OHIO AND
)
JOSEPH W. TESTA,
)
TAX COMMISSIONER OF OHIO )
APPELLANTS
)
)
V.
)
)
GREAT LAKES MINERALS, LLC )
APPELLEE
)
_________________________________)
ON TRANSFER FROM COURT OF APPEALS
CASE NO. 2018-CA-000484
GREENUP CIRCUIT COURT NO. 17-CI-00311
HONORABLE ROBERT B. CONLEY, JUDGE
OPINION OF THE COURT BY
JUSTICE KELLER
REVERSING AND REMANDING
Appellants, State of Ohio and Joseph W. Testa, Tax
Commissioner of Ohio, appeal an order of the Greenup
Circuit Court denying their motion to dismiss Great
Lakes Minerals, LLC’s suit against them. For the

App. 2
following reasons, we reverse the decision of the
Greenup Circuit Court and remand with instructions
to dismiss all claims.
I. BACKGROUND
Great Lakes Minerals, LLC (hereinafter, Great
Lakes) is a mineral processing company1 that sells
minerals to buyers at its Greenup County, Kentucky
plant. Great Lakes maintains that it sells its products
in Kentucky; all transactions, including payment and
delivery of goods, occur in Kentucky; Great Lakes does
not have a physical presence in Ohio; and Great Lakes
neither directly nor indirectly delivers its products to
the State of Ohio.
Stated very simply, Ohio has created a commercial
activity tax (CAT) that taxes persons who do business
and have a substantial nexus to Ohio. O.R.C.2
5751.02(A). Ohio’s Department of Taxation
(Department) may issue a CAT assessment to an outof-state business for outstanding liability to Ohio
arising from transactions with an Ohio company.
Businesses are provided administrative remedies to
protest CAT assessments to the Tax Commissioner of
Ohio, then the Ohio Board of Tax Appeals, and then
the Ohio appellate courts. O.R.C. 5751.09; O.R.C.
5717.02; ORC 5717.04.

1

According to the business records of the Kentucky Secretary of
State, Great Lakes is a limited liability company organized under
the laws of Delaware.

2

Ohio Revised Code.

App. 3
Ohio determined that between 2009 and 2016,
Great Lakes sold over $104 million in minerals that
were then shipped to Ohio addresses. The Department
issued a CAT assessment against Great Lakes for
$325,000. Great Lakes paid a portion of the assessment
but petitioned for reassessment with the
Commissioner, challenging the assessment’s validity.
One month after protesting to the Commissioner,
Great Lakes sued Ohio and Joseph W. Testa, Ohio’s
Tax Commissioner, in his official and individual
capacities, in Greenup Circuit Court. Great Lakes
sought: (1) a declaratory judgment that it is not subject
to Ohio’s CAT; (2) monetary relief pursuant to 42
U.S.C.A. § 1983 for the forced collection of taxes not
owed, in violation of the Ohio and United States
Constitutions; and (3) a determination pursuant to CR3
60.03 that it would be inequitable to require Great
Lakes to defend an action in a foreign state. Ohio
moved to dismiss Great Lakes’ complaint on grounds of
sovereign immunity, qualified immunity, comity, lack
of personal jurisdiction, and failure to exhaust
administrative remedies. The Greenup Circuit Court
denied Ohio’s Motion to Dismiss in a two-sentence
order, and Ohio filed a Notice of Appeal with the Court
of Appeals. Ohio moved to transfer jurisdiction over
that interlocutory appeal to this Court, which this
Court granted. We then abated this case pending the
Supreme Court of the United States’ decision in
Franchise Tax Board of California v. Hyatt, 139 S.Ct.
1485 (2019) (hereinafter “Hyatt III”). Following the
rendition of Hyatt III, this Court granted the
3

Kentucky Rules of Civil Procedure.

App. 4
Appellants’ motion for leave to file supplemental briefs.
Supplemental briefing by the parties has been
completed, and the matter is ripe for consideration.
II. ANALYSIS
The State of Ohio argues that it is protected by
sovereign immunity under Hyatt III. Testa argues that
he is entitled to the same sovereign immunity as Ohio
in his official capacity and qualified official immunity
in his personal capacity. Great Lakes, on the other
hand, argues that sovereign immunity does not apply
to actions for declaratory or injunctive relief and that
sovereign immunity does not apply to the appellants in
the capacity in which they were sued pursuant to 42
U.S.C.A. § 1983. The question of whether a defendant
is protected by sovereign immunity, governmental
immunity, or official immunity is a question of law.
Rowan Cty. v. Sloas, 201 S.W.3d 469, 475 (Ky. 2006).
This Court reviews questions of law de novo.
Cumberland Valley Contractors, Inc. v. Bell Cty. Coal
Corp., 238 S.W.3d 644, 647 (Ky. 2007).
A. State of Ohio
We will first address whether the State of Ohio is
protected by the doctrine of sovereign immunity. Ohio
relies, in large part, on Hyatt III to argue that it is
entitled to sovereign immunity protection. In that case,
Hyatt sued the Franchise Tax Board of California in
Nevada state court for various torts the Tax Board
allegedly committed during a tax audit. Hyatt III, 139
S.Ct. at 1491. After discussing the United States
Constitution at length as well as the intent of the
framers, the United States Supreme Court held that

App. 5
the Tax Board of California was protected by sovereign
immunity and could not be sued in Nevada state court.
Id. at 1492. Great Lakes, however, attempts to
distinguish the case at bar from Hyatt III because
Hyatt was seeking a monetary award of damages from
California. Great Lakes, conversely, is only seeking
monetary damages against Testa in his individual
capacity and declaratory, injunctive, and equitable
relief against Ohio and Testa in his official capacity.
Great Lakes argues that the United States Supreme
Court’s 2016 decision in Franchise Tax Board of
California v. Hyatt, 136 S.Ct. 1277 (hereinafter “Hyatt
II”), is actually the controlling authority.4
In Hyatt II, the predecessor of Hyatt III, the
Supreme Court reversed a monetary award against the
Franchise Tax Board of California, an out-of-state

4

Great Lakes makes this argument by attempting to cite to Hyatt
III’s summary of the case’s history. Great Lakes, in its
supplemental brief to this Court, includes a block quote
purportedly from Hyatt III, emphasizing the sentence, “This
[United States Supreme] Court reversed, holding that the Full
Faith and Credit Clause required Nevada courts to grant the
Board the same immunity that Nevada agencies enjoy.” (Internal
italics omitted). It does not include a pin cite to the page in the
U.S. Supreme Court decision from which this quote is taken. The
reason for this is that the quote is not actually from the U.S.
Supreme Court’s opinion. Rather, it was taken from the Syllabus
of the opinion. The Syllabus contains a footnote which says, “The
syllabus constitutes no part of the opinion of the Court but has
been prepared by the Reporter of Decisions for the convenience of
the reader.” This Court notes that the Syllabus of an opinion of the
U.S. Supreme Court is wholly inappropriate to quote and should
never be cited as controlling authority. Parties should take great
care to refrain from doing so in the future.

App. 6
agency, that was greater than that which Nevada
would award in a similar suit against its own state
agency. Id. The Court concluded that in awarding these
higher-than-otherwise-allowed damages, Nevada
“applied a special rule of law that evinces a policy of
hostility toward California.” Id. at 1281 (internal
quotation marks omitted). Hyatt II does not control our
decision here today.
Hyatt III, however, does control, at least in part, our
decision in this case. The United States Supreme Court
in Hyatt III held, unequivocally, that under the United
States Constitution, “States retain their sovereign
immunity from private suits brought in the courts of
other States.” 139 S.Ct. at 1492. Great Lakes argues
that the word “retain” in the above quoted sentence
dictates that this Court look to our general immunity
principles as applied to declaratory and injunctive
relief. However, the U.S. Supreme Court went on to
say, “[A]lthough the Constitution assumes that the
States retain their sovereign immunity except as
otherwise provided, it also fundamentally adjusts the
States’ relationship with each other and curtails their
ability, as sovereigns, to decline to recognize each
other’s immunity.” Id. at 1493. The Court then went on
to say, “Interstate immunity, in other words, is ‘implied
as an essential component of federalism.”’ Id. at 1498
(quoting Nevada v. Hall, 440 U.S. 410, 430-31 (1979)
(Blackmun, J., dissenting)).
The U.S. Supreme Court in Hyatt III made no
distinction between claims seeking monetary damages
and claims seeking other types of relief. “The
Constitution...embeds interstate sovereign immunity

App. 7
within the constitutional design.” Id. at 1497.
Accordingly, the State of Ohio is protected by sovereign
immunity, and Great Lakes’ claims against it should
have been dismissed. We, therefore, reverse the
Greenup Circuit Court’s denial of the State of Ohio’s
motion to dismiss.
B. Joseph Testa in his official capacity
We next address whether Joseph Testa is immune
from suit in his official capacity as Tax Commissioner
of Ohio. In general,
[o]fficial-capacity suits...represent only another
way of pleading an action against an entity of
which an officer is an agent.... As long as the
government entity receives notice and an
opportunity to respond, an official-capacity suit
is, in all respects other than name, to be treated
as a suit against the entity.
Kentucky v. Graham, 473 U.S. 159, 165-66 (1985)
(internal citations and quotations omitted). As such,
Testa is entitled to the same sovereign immunity that
protects the state of Ohio, and therefore Great Lakes’
claims against him in his official capacity should have
been dismissed. We, therefore, reverse the Greenup
Circuit Court’s denial of Testa’s motion to dismiss the
claims brought against him in his official capacity as
Tax Commissioner of Ohio.
C. Joseph Testa in his personal capacity
Having concluded that both the state of Ohio and
Joseph Testa in his official capacity are immune from
suit, we turn to the remaining question before us,

App. 8
namely, whether immunity protects Joseph Testa in
his personal capacity. “Personal-capacity suits seek to
impose personal liability upon a government official for
actions he takes under color of state law.” Id. at 165. As
such, the only claim against Testa in his personal
capacity is that for monetary relief pursuant to 42
U.S.C.A. § 1983 for the alleged forced collection of taxes
not owed, in violation of the Ohio and United States
Constitutions.
On the merits, to establish personal liability in
a § 1983 action, it is enough to show that the
official, acting under color of state law, caused
the deprivation of a federal right.... When it
comes to defenses to liability, an official in a
personal-capacity action may, depending on his
position, be able to assert personal immunity
defenses, such as objectively reasonable reliance
on existing law.
Id. at 166-67 (internal citations omitted).
The United States Supreme Court time and again
has recognized that § 1983 “was not meant to effect a
radical departure from ordinary tort law and the
common-law immunities applicable in tort suits.”
Rehberg v. Paulk, 566 U.S. 356, 361 (2012). Our Court
recently reaffirmed this principle when we stated, “As
explained in Rehberg, the scope of immunity available
to state government officials in a federal civil rights
action under § 1983 derives from the state’s common
law immunity doctrine.” Martin v. O’Daniel, 507
S.W.3d 1, 5 (Ky. 2016). Thus, to determine whether
Testa, in his personal capacity, is immune from suit,
we must turn to the common law doctrine of immunity.

App. 9
Any immunity determination by this Court would
require us not only to evaluate Testa’s actions but also
to interpret Ohio tax law.
Because our decision would ultimately turn on Ohio
law, we feel compelled to consider the doctrine of
comity. This doctrine “is one of deference and respect
among tribunals of overlapping jurisdiction; in
accordance with comity, the courts of one state or
jurisdiction give effect to the laws and judicial decisions
of another, not as a matter of obligation but out of
deference and respect.” 16 AM. JUR. 2D Conflict of Laws
§ 11 (2019). For example,
[i]f Kentucky fails to respect that a cause of
action accrues in a foreign jurisdiction, like New
York, although the final event necessary for the
cause of action occurred in New York, Kentucky
shows disrespect for New York’s territoriality in
derogation of comity principles that the
Kentucky Supreme Court may value.
Combs v. Int’l Ins. Co., 354 F.3d 568, 591 (6th Cir.
2004).
The Supreme Court of the United States has
applied the doctrine of comity in the context of a § 1983
action for the unlawful administration of a state’s tax
system, ultimately dismissing such claims. For
example, in Fair Assessment inReal Estate Association
v. McNary, 454 U.S. 100 (1981), the Supreme Court
held that “taxpayers are barred by the principle of
comity from asserting § 1983 actions against the
validity of state tax systems in federal courts,”
including actions for damages. Id. at 116. In doing so,

App. 10
the McNary Court explained the reasoning behind
federal courts’ deference to state tax administration by
citing with approval a concurring in part and
dissenting in part decision by Justice Brennan:
The special reasons justifying the policy of
federal noninterference with state tax collection
are obvious. The procedures for mass
assessment and collection of state taxes and for
administration and adjudication of taxpayers’
disputes with tax officials are generally complex
and necessarily designed to operate according to
established rules. State tax agencies are
organized to discharge their responsibilities in
accordance with the state procedures. If federal
declaratory relief were available to test state tax
assessments, state tax administration might be
thrown into disarray, and taxpayers might
escape the ordinary procedural requirements
imposed by state law.
Id. at 108, n.6 (quoting Perez v. Ledesma, 401 U.S. 82,
128, n.17 (1971) (Brennan, J., concurring in part and
dissenting in part)).
Though McNary addressed comity between federal
and state courts, we feel compelled to apply similar
principles to the case at hand. As noted above, the
question before us—whether Testa may be held
personally liable for violations of § 1983—turns on Ohio
law. In essence, then, we are required to determine
whether Testa’s imposition of the CATS assessment on
Great Lakes was consistent with Ohio law. As the
McNary Court explained, any declaration from this
Court about the lawfulness of Testa’s application of

App. 11
Ohio law would be intrusive and could disrupt Ohio’s
state tax administration.
In sum, we believe that Ohio’s state courts are
better suited to efficiently evaluate and apply Ohio law
to this issue. Should the case progress further, Ohio’s
courts would also be better suited to evaluate the facts,
and to consider whether Testa caused the deprivation
of a constitutional right while acting under the color of
Ohio state law. Accordingly, relying on the principle of
comity, we hereby dismiss Joseph Testa in his personal
capacity.
III. CONCLUSION
For the foregoing reasons, we reverse the judgment
of the Greenup Circuit Court and remand to the
Greenup Circuit Court for dismissal of the claims.
Minton, C.J.; Hughes, Keller, Lambert, VanMeter,
and Wright, JJ., sitting. All concur. Nickell, J., not
sitting.
COUNSEL FOR APPELLANTS:
Thomas Edward Madden
Daniel W. Fausey
Assistant Attorneys General
COUNSEL FOR APPELLEE:
Thomas Dulaney Bullock
Robert V. Bullock
James Roscoe Stinetorf
Bullock & Coffman, LLP

App. 12

APPENDIX B
COMMONWEALTH OF KENTUCK
GREENUP CIRCUIT COURT
CIVIL DIVISION
CASE NO. 17-CI-00311
[Filed: February 16, 2018]
_________________________________
GREAT LAKES MINERALS, LLC )
PLAINTIFF
)
)
V.
)
)
JOSEPH W. TESTA,
)
TAX COMMISSIONER OF OHIO, )
et al.
)
DEFENDANTS
)
_________________________________)
ORDER
***********************
This matter having come before the Court on
January 11, 2017 on the Defendants’ Motion to
Dismiss. The Court, after having reviewed the record
and being otherwise sufficiently advised, the
Defendants’ Motion to Dismiss is hereby DENIED.
s/____________________________________
JUDGE, GREENUP CIRCUIT COURT

App. 13
HAVE SEEN:
s/Thomas D. Bullock
Hon. Thomas D. Bullock
Counsel for the Plaintiff
(Refused)
Hon. Daniel Kim
Counsel for the Defendants
Clerk’s Certificate of Service
I do hereby that the foregoing Order was sent via
US. Mail to the following on this the 16th day of Feb,
2018:
Hon. Thomas E. Madden
Ohio Assistant Attorney General
150 East Gay Street
Columbus, Ohio 43215
Hon. Daniel G. Kim
Ohio Assistant Attorney General
30 East Broad Street, 25th Floor
Columbus, Ohio 43215
Counsels for the Defendants
Hon. Thomas D. Bullock
234 North Limestone
Lexington, Kentucky 40507
Counsel for the Plaintiff

s/____________________________________
CLERK, GREENUP CIRCUIT COURT

App. 14

APPENDIX C
SUPREME COURT OF KENTUCKY
2018-SC-000161-TG
[Filed: April 30, 2020]
_________________________________
STATE OF OHIO AND
)
JOSEPH W. TESTA,
)
TAX COMMISSIONER OF OHIO )
APPELLANTS
)
)
V.
)
)
GREAT LAKES MINERALS, LLC )
APPELLEE
)
_________________________________)
ON TRANSFER FROM COURT OF APPEALS
CASE NO. 2018-CA-000484-MR
GREENUP CIRCUIT COURT NO. 17-CI-00311
HONORABLE ROBERT B. CONLEY, JUDGE
ORDER DENYING PETITION FOR
REHEARING AND MODIFICATION
The Petition for Rehearing and Modification, filed
by the Appellee, of the Opinion of the Court, rendered
December 19, 2019, is DENIED.
All sitting. All concur.

App. 15
ENTERED: April 30, 2020.
s/__________________
CHIEF JUSTICE

App. 16

APPENDIX D
SUPREME COURT OF KENTUCKY
2018-SC-000161-TG
[Filed: June 14, 2018]
_________________________________
STATE OF OHIO AND
)
JOSEPH W. TESTA,
)
TAX COMMISSIONER OF OHIO )
MOVANTS
)
)
V.
)
)
GREAT LAKES MINERALS, LLC )
RESPONDENT
)
_________________________________)
ON MOTION TO TRANSFER
COURT OF APPEALS CASE NO. 2018-CA-000484
GREENUP CIRCUIT COURT NO. 17-CI-00311
HONORABLE ROBERT B. CONLEY, JUDGE
ORDER GRANTING MOTION TO TRANSFER
The motion of the Movants to transfer this appeal
from the Kentucky Court of Appeals to the Supreme
Court of Kentucky is granted.
The parties shall comply with the briefing schedule
as specified in CR 76.12.

App. 17
The Clerk of the Kentucky Court of Appeals is
directed forthwith to transmit to this Court all of the
records and files on this appeal.
All sitting. All concur.
ENTERED: June 14, 2018
s/____________________
CHIEF JUSTICE

App. 18

APPENDIX E
SUPREME COURT OF KENTUCKY
2018-SC-000161-TG
[Filed: March 14, 2019]
_________________________________
STATE OF OHIO AND
)
JOSEPH W. TESTA,
)
TAX COMMISSIONER OF OHIO )
APPELLANTS
)
)
V.
)
)
GREAT LAKES MINERALS, LLC )
APPELLEE
)
_________________________________)
ON APPEAL FROM GREENUP CIRCUIT COURT
HONORABLE ROBERT B. CONLEY, JUDGE
NO. 17-CI-00311
ORDER
The above styled action is hereby held in abeyance
pending final determination of Franchise Tax Bd. Of
California v. Hyatt, 138 S. Ct. 2710, No. 17-1299
(2018).
Minton, C.J.; Hughes, Keller, Lambert, VanMeter
and Wright, JJ., sitting. All concur.

App. 19
ENTERED: March 14, 2019.
s/_______________________
CHIEF JUSTICE

App. 20

APPENDIX F
COMMONWEALTH OF KENTUCKY
GREENUP COUNTY CIRCUIT COURT
CIVIL DIVISION
CASE NO. 17-CI-00311
[Filed: July 10, 2017]
____________________________________
GREAT LAKES MINERALS, LLC
)
PLAINTIFF/PETITIONER
)
)
V.
)
)
JOSEPH W. TESTA,
)
in his individual and official
)
capacity as Tax Commissioner for
)
Ohio Department of Taxation
)
STATE OF OHIO
)
DEFENDANTS/RESPONDENTS )
_________________________________ )
*****************************
COMPLAINT AND PETITION FOR
DECLARATORY JUDGMENT

App. 21
Comes now Great Lakes Minerals, LLC,
(hereinafter referred to as “Great Lakes Minerals”) by
and through counsel, and for its Complaint and
Petition for Declaratory Judgment against the
Defendants herein, states the following:
1. Great Lakes Minerals is a minerals company
located at 1200 Port Road, Wurtland, Kentucky
41144 in Greenup County, Kentucky. Great
Lakes Minerals is an active company in good
standing with the Office of the Secretary of State
for the Commonwealth of Kentucky.
2. Joseph W. Testa (hereinafter referred to as
“Testa”) is the current Tax Commissioner for the
Ohio Department of Taxation, having been
appointed to this position by Governor John
Kasich in January 2011. As the Ohio Tax
Commissioner, Testa is the individual and
representative for the State of Ohio charged
with the responsibility and duty of enforcing the
Ohio Tax laws and collection of taxes. Testa’s
primary business address is 30 E. Broad Street,
22nd Floor, Columbus, Ohio 43215.
3. The State of Ohio (hereinafter referred to as
“Ohio”) is a state governmental entity with a
primary business address of 30 E. Broad Street,
22nd Floor, Columbus, Ohio 43215. The Attorney
General for the State of Ohio is Hon. Mike
DeWine with a primary business address of 30
E. Broad Street, 14th Floor, Columbus, Ohio
43215. As the Attorney General for the State of
Ohio, DeWine is the official representative for
the State of Ohio.

App. 22
FACTS
4. Great Lakes Minerals is a mineral processing
plant located in Wurtland, Greenup County,
Kentucky.
5. When Great Lakes Minerals sells its products to
customers, the financial transaction takes place
in Greenup County Kentucky and the customers
take possession of products at the plant in
Greenup County, Kentucky.
6. After the customer pays for the product and
takes possession of it, the customer is the legal
owner of it and Great Lakes Minerals has no
further legal rights in them nor control over the
products, including the right to dictate where
the customer may take the minerals.
7. Great Lakes Minerals does not directly, nor
through a carrier, deliver its products to the
State of Ohio. The customers must come to
Kentucky to perform the transaction and take
possession of the minerals.
8. Beginning in March of 2016, the State of Ohio
began a systematic and continuous endeavor in
Kentucky to make Great Lakes Minerals pay a
Corporate Activity Tax (hereinafter “CAT”) to
the State of Ohio.
9. The State of Ohio sent letters to Great Lakes
Minerals at its location in Greenup County,
Kentucky to make payments to the State of
Ohio.

App. 23
10.

The State of Ohio sent two individuals to the
Great Lakes Minerals plant in Greenup
County, Kentucky.

11.

The State of Ohio directed telephone calls to
Great Lakes Minerals at its plant in Greenup
County, Kentucky.

12.

The State of Ohio threatened Great Lakes
Minerals that if it did not pay the CAT, that
it would have to pay the tax plus additional
penalties and interest.

13.

Based upon the communications and
discussion with the State of Ohio, through its
representatives who were physically located
in the Commonwealth of Kentucky at the
time that they were convincing Great Lakes
Minerals to pay the tax, Great Lakes
Minerals wrote a check from its bank account
in Kentucky to the State of Ohio in the
amount of $286,072.00.

14.

Great Lakes Minerals insisted that it should
not be required to pay the Ohio CAT tax as it
does not have sufficient minimum contacts
with the State of Ohio to be subjected to the
tax.

15.

In addition to not having sufficient contacts
under the United States Constitution to be
subject to the Ohio tax, the laws passed by
the legislature of the State of Ohio
specifically exclude the situation such as the
case at bar.

App. 24
16.

R.C. 5751.01 (G) defines “Taxable gross
receipts” as follows:
(G) “Taxable gross receipts” means gross
receipts sitused to this state under section
5751.033 of the Revised Code.
R.C. 5751.033 (E) defines “Situsing of gross
receipts to Ohio” as follows:
(E) Gross receipts from the sale of
tangible personal property shall
be sitused to this state if the property is
received in this state by the purchaser. In
the case of delivery of tangible personal
property by motor carrier or by other
means of transportation, the place at
which such property is ultimately
received after all transportation has been
completed shall be considered the place
where the purchaser receives the
property. For purposes of this section, the
phrase “delivery of tangible personal
property by motor carrier or other means
of transportation” includes the situation
in which the purchaser accepts the
property in this state and then transports
the property directly or by other means to
a location outside this state. Direct
delivery in this state, other than for
purposes of transportation, to a person or
firm designated by a purchaser
constitutes delivery to the purchaser in
this state, and direct delivery outside

App. 25
this state to a person or firm
designated by a purchaser does not
constitute delivery to the purchaser
in this state, regardless of where title
passes or other conditions of sale.
(Emphasis Added).
17.

Despite the insistence by Great Lakes
Minerals that the State of Ohio cannot
constitutionally nor under its own laws
require Great Lakes Minerals to pay the tax,
the State of Ohio, by and through its Tax
Commissioner, sought to enforce and collect
the tax against Great Lakes Minerals by
filing an official Assessment on April 6, 2017
and sent it to Great Lakes Minerals at its
plant in Greenup County, Kentucky. See,
Assessment attached hereto as Exhibit A.

18.

Great Lakes Minerals does not owe the Ohio
CAT Tax nor the penalties and interest
associated therewith.
COUNT I

19.

The Plaintiff does adopt and reiterate the
facts and allegations in Numerical
Paragraphs 1-18 above as if fully set forth
herein.

20.

Pursuant to the Supremacy Clause of Article
VI of the United States Constitution, the
Greenup Circuit Court is authorized to hear
claims by Kentucky citizens and businesses
for violations of protected rights, privileges or

App. 26
immunities guaranteed under federal law or
the United States Constitution.
21.

The rights and remedies for violations of
protected rights, privileges or immunities
guaranteed under federal law or the United
States Constitution are contained in 42
U.S.C. 1983, et seq.

22.

Joseph W. Testa, in his individual capacity,
is an individual within the meaning of 42
U.S.C. 1983 as the actions taken by him,
and/or those working under his direction,
were beyond the authority granted to him by
the State of Ohio and the United States
Constitution.

23.

The actions taken by Testa, and/or those
working under his direction, occurred under
color of state law.

24.

The actions taken by Testa, and/or those
working under his direction, constitute
violations of protected rights, privileges
and/or immunities guaranteed under federal
law, the United States Constitution and the
applicable state laws.

25.

The Plaintiff has suffered and continues to
suffer damages as a direct and proximate
result of the actions of Testa and/or those
working under his direction in an amount in
excess of this Court’s minimal jurisdictional
amount.

App. 27
26.

Pursuant to 42 U.S.C. 1983 and 1986, the
Plaintiff is entitled to Compensatory and
punitive damages as this Court deems
appropriate, as well as its costs and
reasonable attorney’s fees associated
herewith.
COUNT II

27.

The Plaintiff does adopt and reiterate the
facts and allegations in Numerical
Paragraphs 1-26 above as if fully set forth
herein.

28.

The Plaintiff hereby requests that this Court
issue a Declaratory Judgment in favor of
Great Lakes Minerals that it is not subject to
the Ohio CAT tax and/or that such tax is not
enforceable against Great Lakes Minerals.
COUNT III

29.

The Plaintiff does adopt and reiterate the
facts and allegations in Numerical
Paragraphs 1-28 above as if fully set forth
herein.

30.

Pursuant to Kentucky Rules of Civil
Procedure 60.03, this independent action is
being initiated to relieve Great Lakes
Minerals of having to participate in or be
subject the State of Ohio proceedings.

31.

In support of its CR 60.03 independent
action, the Plaintiff hereby states that it is
not equitable to require a Kentucky resident

App. 28
without sufficient contacts to be required to
defend an action in a foreign state, in light of
the constitutional guarantees and the specific
language of the Ohio tax code exempting this
situation.
WHEREFORE, the Plaintiff hereby demands all
relief to which it may be entitled, including but not
limited to a refund of all moneys previously paid,
interest on such sums, any additional compensatory
and punitive damages, court costs and reasonable
attorneys’ fees associated herewith.
Respectfully Submitted,
BULLOCK & COFFMAN, LLP
s/ Thomas D. Bullock
Hon. Thomas D. Bullock
234 N. Limestone Street
Lexington, Kentucky 40507
Telephone: 859-225-3939
Facsimile: 859-225-5748
Attorney for Great Lakes Minerals, LLC

App. 29

NOTICE OF
ASSESSMENT
GREAT LAKES MINERALS LLC
1200 PORT ROAD
WURTLAND, KY 41144
RECEIVED
APR 11 2017
April 06, 2017
Contact ID: 4979630917
RE: Ohio Tax Account #; 96200037
Tax Type: Commercial Activity
Reporting Period: 01/01/2009- 09/30/2016
Audit Type: Field Audit
Assessment #: 100000648707
Pursuant to section 5751.09 of the Ohio Revised Code
(R.C.), the Tax Commissioner Hereby Certifies the
Following:

App. 30
Assessment
Tax Due

$250.970.00

Annual Minimum Tax

$8,550.00

Pre-Assessment Interest

$26,552.00

Assessment Penalty on Tax

$38,928.00

Total

$325,000.00

Less Payment(s)/Credit Carry
Forward(s)

$286,072.00

Amount Owed

$38,928.00

Notice to taxpayers in Bankruptcy: this assessment is
a notice of deficiency, permissible pursuant to 11
U.S.C. Section 362(b)(9).
I HEREBY CERTIFY THE FOLLOWING TO BE A
TRUE AND CORRECT COPY OF THE ACTION OF
THE TAX COMMISSIONER TAKEN THIS DAY WITH
RESPECT TO THE ABOVE MATTER.
TAX COMMISSIONER, STATE OF OHIO
To appeal this assessment, please follow instructions
on the following page.
ASAT0001
Ohio Universal Payment Voucher
Assessment Payment (22)
Commercial Activity Tax (752)

App. 31
Reporting Period: 01/01/2009-09/30/2016
Account #: 96200037
Contact ID: 4979630917
Assessment ID: 1000000648707
GREAT LAKES MINERALS LLC
1200 PORT ROAD
WURTLAND, KY 41144
Ohio Department of Taxation
PO Box 16678
Columbus, OH 43216-6678
Amount Owed: 38,928.00
Enter Amount Paid: $

